                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

  Case Number: 1-11020002                                                                  Page 1 of 1



          We received an allegation that a company 1 may have received duplicate funding for the same
          work from multiple federal agencies including NSF. We examined the potentially duplicative
          awards and determined that the awards funded distinct research. The allegation was not
          substantiated.

          During the course of the investigation, we identified a separate company2 that may have
          overstated expenses on NSF reports regarding one of its awards. We reviewed the company's
          award expenditures and found no improper expenses. We concluded that the apparent
          misstatements in the reports were administrative errors with no intent to deceive. Thus, we did
          not substantiate misconduct witli regard to this company.

          This case is closed with no further action taken.




NSF OIG Form 2 (11102)
